No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
JAMES DAVID PERRYMAN,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas
Appendix C Factual Resume in Support of Plea

APPENDIX A

Case: 19-10755

Document: 00515488830

Page: 1

Date Filed: 07/14/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10755

FILED
July 14, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
JAMES DAVID PERRYMAN,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
Before SMITH, HIGGINSON, and ENGELHARDT, Circuit Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
James David Perryman pleaded guilty to possession of a firearm by a
convicted felon. The district court sentenced him to 110 months of
imprisonment. He appeals, arguing that the district court erred by accepting a
constitutionally inadequate factual resume and applying a guideline
enhancement for obstruction of justice. We AFFIRM.
I
On December 29, 2018, agents with the Bureau of Alcohol, Tobacco,
Firearms, and Explosives observed a Facebook conversation between
Perryman and another individual in which Perryman sent a photograph of a
pistol with a visible serial number.

Case: 19-10755

Document: 00515488830

Page: 2

Date Filed: 07/14/2020

No. 19-10755
On January 17, 2019, Texas police pulled Perryman over in Lubbock,
Texas for an expired vehicle registration. Perryman was arrested for driving
without a driver’s license. During an inventory search of the vehicle, officers
found a loaded pistol with a serial number matching the pistol in the Facebook
post.
On March 20, 2019, Perryman pleaded guilty to one count of possession
of a firearm by a convicted felon in violation of 18 U.S.C. §§ 922(g)(1) and
924(a)(2). A probation officer prepared a presentence investigation report
(“PSR”) on May 17, 2019. It calculated Perryman’s base offense level as 20 and
recommended a three-level reduction for acceptance of responsibility. It also
calculated Perryman’s criminal history category as V, resulting in a guideline
imprisonment range of 46 to 57 months.
On May 22, 2019, Perryman testified as a witness for the defense in the
trial of United States v. Sean Paul Dalka, 5:19-CR-027-02-C. The same district
judge who presided over Perryman’s criminal proceedings also presided over
Dalka’s trial. Dalka was charged with firearm and controlled substance
offenses, and Perryman testified that certain firearms and methamphetamine
found at Dalka’s residence belonged to him rather than to Dalka. He testified
that he received the firearms in exchange for methamphetamine that he was
dealing, and he stored those firearms, along with methamphetamine, at
Dalka’s residence, which he and other drug dealers used as a stash house.
Perryman testified that he carried a pistol—presumably the one at issue in
this case—with him for protection when he dealt drugs.
On June 7, 2019, the government filed objections to the PSR based on
Perryman’s testimony at Dalka’s trial. The government claimed that Perryman

2

Case: 19-10755

Document: 00515488830

Page: 3

Date Filed: 07/14/2020

No. 19-10755
obstructed justice and demonstrated a lack of acceptance of responsibility 1 by
providing perjured testimony and that Perryman provided evidence that he
possessed the pistol in connection with another felony offense—drug
trafficking.
On June 14, 2019, the probation officer filed an addendum to the PSR,
“concur[ring]” with the government’s objection, summarizing the evidence from
Dalka’s trial supporting a finding of perjury, and updating the relevant offense
levels. The new guideline imprisonment range was 110 to 120 months, capped
by the ten-year statutory maximum.
On June 26, 2019, Perryman filed a response to the government’s
objection and an objection to the PSR addendum. In his own words, “Perryman
want[ed] the court to know that he testified truthfully at the trial of Sean
Dalka.” Perryman noted that his testimony was not contradicted by the
testimony of other witnesses, was against the “strongly worded advice of his
attorney,” was based on his “strong feeling that Dalka should not be held
responsible for Perryman’s drugs and guns,” and was “contrary to his penal
interests, as well as contrary to his interest as a gang member.”
At the sentencing hearing on June 28, 2019, Perryman reiterated his
argument that he had not perjured himself at Dalka’s trial. He agreed that the
four-level enhancement for using or possessing a firearm in connection with
another felony was appropriate, but he argued that he should not receive an

Comment note four to U.S.S.G. § 3E1.1, the acceptance of responsibility guideline,
instructs that conduct resulting in an obstruction of justice enhancement under § 3C1.1
“ordinarily indicates that the defendant has not accepted responsibility for his criminal
conduct. There may, however, be extraordinary cases in which adjustments under both
§§ 3C1.1 and 3E1.1 may apply.” U.S.S.G. § 3E1.1 cmt. n.4. Perryman notes that the same
finding of perjury supported the obstruction of justice guideline enhancement and the denial
of a guideline reduction for acceptance of responsibility. But Perryman does not appeal the
denial of a guideline reduction for acceptance of responsibility, and he does not contend that
this case involves exceptional circumstances justifying application of both an enhancement
under § 3E1.1 and a reduction under § 3C1.1.
1

3

Case: 19-10755

Document: 00515488830

Page: 4

Date Filed: 07/14/2020

No. 19-10755
enhancement for obstruction of justice and he should receive a reduction for
acceptance of responsibility. The district court sustained the government’s
objection to the PSR, adopted the PSR and PSR addendum, and sentenced
Perryman to 110 months of imprisonment. Perryman filed a timely notice of
appeal on July 3, 2019.
II
First, Perryman argues that the district court erred by accepting a
constitutionally inadequate factual resume. According to Perryman, 18 U.S.C.
§ 922(g)(1) “exceeds the power of the federal government” because in National
Federation of Independent Business v. Sebelius, 567 U.S. 519 (2012), the
Supreme Court clarified that Congress can only regulate a person’s activity
under the Commerce Clause if that person is currently engaged in activity
affecting the relevant market, and § 922(g)(1) criminalizes all firearms
possession without reference to recent economic activity by the defendant.
In Scarborough v. United States, 431 U.S. 563 (1977), the Supreme Court
interpreted 18 U.S.C. § 922(g)(1) to require only that a firearm traveled in
interstate commerce at some previous time. Id. at 575. In United States v.
Alcantar, 733 F.3d 143 (5th Cir. 2013), we held that 18 U.S.C. § 922(g)(1)
remains constitutional following Sebelius. Id. at 145–46. Therefore, as
Perryman acknowledges, this argument is foreclosed under our caselaw.
III
Next, Perryman argues that the district court erred by applying a
guideline enhancement for obstruction of justice based on its finding that he
gave false testimony at Dalka’s trial. According to Perryman, the district court
merely adopted the PSR addendum, which in turn adopted the government’s
objection to the PSR without independent review. The government’s objection
included only (1) a transcript of Perryman’s testimony and (2) the government’s
unsworn description of other, allegedly conflicting evidence presented at
4

Case: 19-10755

Document: 00515488830

Page: 5

Date Filed: 07/14/2020

No. 19-10755
Dalka’s trial. Because the government’s unsworn assertions do not constitute
evidence and Perryman’s testimony without comparison to any contradictory
evidence is insufficient to support a perjury finding, Perryman argues that the
district court committed clear error by finding that he perjured himself at
Dalka’s trial.
Generally, we review the district court’s interpretation and application
of the guidelines de novo and its “factual findings, such as a finding of
obstruction of justice, for clear error.” United States v. Huerta, 182 F.3d 361,
364 (5th Cir. 1999). However, if the defendant did not preserve his or her
specific objection by raising it before the district court, we review only for plain
error. See id. at 366. The parties disagree about whether Perryman adequately
preserved his challenge to the obstruction of justice enhancement. Because we
find no error under either standard of review, we need not resolve this dispute.
At the sentencing hearing, the district court adopted the PSR and PSR
addendum. PSRs generally “bear[] sufficient indicia of reliability to be
considered as evidence by the sentencing judge in making factual
determinations.” United States v. Harris, 702 F.3d 226, 230 (5th Cir. 2012)
(quoting United States v. Nava, 624 F.3d 226, 231 (5th Cir. 2010)). A district
court “may adopt the facts contained in a [PSR] without further inquiry if those
facts have an adequate evidentiary basis with sufficient indicia of reliability
and the defendant does not present rebuttal evidence or otherwise demonstrate
that the information in the PSR is unreliable.” Id. (quoting United States v.
Trujillo, 502 F.3d 353, 357 (5th Cir. 2007)).
We have previously found that “[t]estimony under oath observed by the
district court” bears sufficient indicia of reliability to support its probable
accuracy. United States v. Leonard, 61 F.3d 1181, 1184 (5th Cir. 1995).
Therefore, the district court had no need to rely on the government’s unsworn
assertions, as Perryman alleges. Instead, the district court could—and did—
5

Case: 19-10755

Document: 00515488830

Page: 6

Date Filed: 07/14/2020

No. 19-10755
properly adopt the PSR addendum’s recommendation as to the enhancement
based on the summary of the evidence from Dalka’s trial contained in the PSR
addendum. Because Perryman does not argue that the evidence from Dalka’s
trial, summarized in the PSR addendum, is insufficient to support a finding of
perjury, we find no error. 2
***
For the foregoing reasons, we AFFIRM the judgment of the district court.

Importantly, Perryman does not argue that his alleged perjury does not constitute a
willful obstruction of justice “with respect to . . . the instant offense of conviction.” See U.S.S.G.
§ 3C1.1 (emphasis added). Perryman waived review of this issue by not raising it before the
district court or briefing it on appeal. Brinkmann v. Dallas Cty. Deputy Sheriff Abner, 813
F.2d 744, 748 (5th Cir. 1987) (“We will not raise and discuss legal issues [the parties have]
failed to assert.”). Therefore, we only note that, to our knowledge, we have not upheld
application of the obstruction of justice enhancement based on the defendant’s perjury at the
trial of a non-codefendant, and this opinion should not be read to express any opinion on the
appropriateness of such an application.
2

6

APPENDIX B

Case 5:19-cr-00026-C-BQ Document 46 Filed 06/28/19

Page 1 of 4 PageID 190

Case 5:19-cr-00026-C-BQ Document 46 Filed 06/28/19

Page 2 of 4 PageID 191

Case 5:19-cr-00026-C-BQ Document 46 Filed 06/28/19

Page 3 of 4 PageID 192

Case 5:19-cr-00026-C-BQ Document 46 Filed 06/28/19

Page 4 of 4 PageID 193

APPENDIX C

Case 5:19-cr-00026-C-BQ Document 28 Filed 03/19/19

Page 1 of 4 PageID 61

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION
UNITED STATES OF AMERICA
V.

NO. 5:19-CR-026-C

JAMES DAVID PERRYMAN

FACTUAL RESUME

In support of James David Petryman's plea of guilty to the offense in Count One
of the indictment, Petryman, the defendant, David Sloan, the defendant's attorney, and
the United States of America (the government) stipulate and agree to the following:

ELEMENTS OF THE OFFENSE
To prove the offense alleged in Count One of the indictment, charging a violation
of 18 U.S.C. §§ 922(g)(l) and 924(a)(2), that is, Convicted Felon in Possession of a
Firearm, the government must prove each of the following elements beyond a reasonable
doubt: 1

1

First.

That the defendant knowingly possessed a firearm as charged;

Second.

That before the defendant possessed the firearm, the defendant had
been convicted in a court of a crime punishable by imprisonment for
a te1m in excess of one year; and

Third.

That the firearm possessed traveled in or affected interstate or
foreign commerce; that is, before the defendant possessed the
firearm or ammunition, it had traveled at some time from one state
to another, or between any part of the United States and any other
country.

Fifth Circuit Pattern Jury Instruction 2.43D (5th Cir. 2015).

James David Perryman
Factual Resume--Page 1

19-10755.64

Case 5:19-cr-00026-C-BQ Document 28 Filed 03/19/19

Page 2 of 4 PageID 62

STIPULATED FACTS

1.

James David Perryman admits that on or about January 17, 2019, in the

Lubbock Division of the Northern District of Texas, and elsewhere, he was a person who
had previously been convicted of a crime punishable by a term of imprisonment
exceeding one year, and did knowingly possess in or affecting interstate or foreign
commerce a firearm, to wit: a Taurus, Model 709 Slim, 9mm pistol, serial number
TIW91718. In violation of Title 18, United States Code, Sections 922(g)(l), 924(a)(2),
and 2.
2.

On December 29, 2018, agents with the Bureau of Alcohol, Tobacco,

Firearms, and Explosives observed James David Perryman carry on a Facebook
conversation in which he sent a photograph of a firearm, specifically, a Taurus, model
709 Slim, with serial number TIW91718 to another individual. The serial number was
visible on the firearm in the photo.
3.

On January 17, 2019, a Lubbock, Texas Police Department officer

observed an SUV sitting at the light in the 1800 block of Ave Q that was set to tum left.
The vehicle's registration showed to be expired. The driver, later identified as Perryman,
turned the vehicle from Avenue Q into the 1600 block of 19th Street. The officer
initiated a traffic stop, but PeITyman drove an additional two blocks before pulling over.
4.

PeITyman was unable to produce a valid driver's license and was m~·ested

for driving without a license. The front right passenger, and only other occupant of the
vehicle, was found to have two active warrants and was also at-rested.

James David Perryman
Factual Resume--Page 2

19-10755.65

Case 5:19-cr-00026-C-BQ Document 28 Filed 03/19/19

5.

Page 3 of 4 PageID 63

An inventory of the vehicle was then conducted. In a laundry basket in the

center portion of the back seat, officers located a Taurus, model 709 Slim, 9mm pistol,
with serial number TIW91718. This is the same firearm, and same serial number, as the
firearm that was in the picture that Perryman had sent during the Facebook conversation
on December 29th, 2018.
6.

Perryman had been previously been convicted of several felony offenses

prior to January 17, 2019, and was prohibited from possessing a firearm.
7.

An expert trained in the identification of fireaims examined the firearm

mentioned above and determined that it had not been manufactured in the State of Texas
and would have therefore travelled in interstate or foreign commerce prior to being
possessed by Perryman.
8.

The defendant agrees that the defendant committed all the essential

elements of the offense(s). This factual resume is not intended to be a complete
accounting of all the facts and events related to the offense charged in this case. The
limited purpose of this statement of facts is to demonstrate that a factual basis exists to
support the defendant's guilty plea to Count One of the indictment.
9.

The defendant fmiher agrees and admits that the above-described firearm,

including any additional ammunition, magazines, and accessories recovered with the
firearm, was knowingly possessed by the defendant in violation of 18 U.S.C. § 922(g)
and is therefore subject to forfeiture pursuant to 18 U.S.C. § 924( d).

James David Perryman
Factual Resume--Page 3

19-10755.66

Case 5:19-cr-00026-C-BQ Document 28 Filed 03/19/19

AGREED TO AND STIPULATED on this

Page 4 of 4 PageID 64

11_~ of_,_;_tM_U-__t(_ _ ___, 201~

ERIN NEALY COX
UNITED STATES ATTORNEY

' J ~- })PERRYMAN
Defendant

~

-llJ-S_L_O_AN
_ __ _ __
Attorney for Defendant

Assistant United States ttorne
Texas Bar No. 24056734
1205 Texas Avenue, Suite 700
Lubbock, Texas 79401
Tel: 806-4 72-7351
Fax: 806-472-7394
Email: sean.long@usdoj.gov

James David Perryman
Factual Resume---Page 4

19-10755.67

